Investigative and Audit Accomplishments for January 2014 | The U.S. Small Business Administration | SBA.gov
Skip to main content
Jump to Main Content
An Official Website of the United States Government
Translate
LoginSBA LoginUsing valid employee GLS loginRegister
Search form
Search SBA
Contact SBA
Contacto (en español)
Newsroom
Community
For Lenders
Email Updates
Blogs
Starting & ManagingStarting a BusinessThinking About Starting
Create Your Business Plan
Choose Your Business Structure
Register Your Business
Obtain Business Licenses
Learn About Business Laws
Finance Your Business
Explore Loans, Grants and Funding
Filing & Paying Taxes
Choosing Your Business Location & Equipment
Hire & Retain Employees
Managing a BusinessLeading Your Company
Growing Your Business
Exporting
Running a Business
Business Law & Regulations
Getting Out
Business Guides by Industry
Local Resources
Health Care
Forms
Loans & GrantsSmall Business LoansWhat SBA Offers to Help Small Businesses Grow
SBA Loan Programs
How to Prepare Your Loan Application
Find Small Business Loans
Surety Bonds
SBIC Program
GrantsFacts About Government Grants
Research Grants for Small Businesses
Find Grants
Other Financial AssistanceVenture Capital
Find Loans, Grants & Other Assistance
ContractingGetting StartedAm I a Small Business?
SBA's Role in Government Contracting
Identifying Industry Codes
Small Business Size Standards
D-U-N-S Number
Register for Government Contracting
Contracting Support for Small BusinessesDetermining Business Size
8(a) Business Development
HUBZone Program
Service-Disabled Veterans
Small Disadvantaged Businesses
Women-Owned Small Businesses
Certificates of Competency
Size Protests
Natural Resources Assistance
Commercial Market Representatives
Report Fraud
Understanding the Federal MaketplaceContracting Resources for Small Businesses
Contract Responsibilities
Contracting Regulations for Small Businesses
Sub-Contracting
Small Business Utilization Scorecards
For Contracting OfficialsHUBZone
Non-Manufacturer Waivers
Report Fraud, Waste & Abuse
Protests
OSDBU
Small Business Goaling
Federal Aquisition Regulations (FAR)
Certificate of Competency Program
Procurement Center Representatives
Government Contracting Field Staff Directory
Service Contract Inventory
Partnership Agreements
Goaling Program
Interagency Task Force on Federal Contracting Opportunities for Small Businesses
Learning Center
Local AssistanceSBA District Offices
Small Business Development Centers
U.S. Export Assistance Centers
Certified Development Companies
Procurement & Technical Assistance Centers
SCORE Chapters
Women's Business Centers
Veteran's Business Outreach Centers
Disaster Field Offices
SBA Regional Offices
About SBAWhat We DoMission
History
Authority
Resource Guides
SBA TeamThe SBA Administrator
SBA Leadership
Jobs at SBA
SBA LocationsHeadquarters Offices
Regional Offices
District Offices
Disaster Offices
SBA NewsroomNews & Press Releases
Disaster Press Releases
Speeches
Congressional Testimony
Weekly Lending Report
Media & Press Contacts
Regional & Local Media
Fiscal Year 2012 Budget Summary
Press Release Archive
SBA InitiativesSBA Emerging Leaders Initiative
Clusters Initiative
7(j) Management and Technical Assistance Services Program
Small Business Teaming Pilot Program
Small Business Jobs Act of 2010
Startup America
Council on Underserved Communities (CUC)
Intermediary Lending Pilot
Greening SBA
Small Business Saturday 2013
SBA PerformanceStrategic Planning
Performance & Budget
Open Government
SBA Data Store
Policy & Regulations
Oversight & AdvocacyInspector General
Advocacy
Hearings & Appeals
Ombudsman
SBA.gov » Office of Inspector General » Newsroom » Recent Investigative & Audit Actions » Investigative and Audit Accomplishments for January 2014
Inspector General
About Us
OIG Directory
NewsroomEmail Alerts
Press Releases
Recent Investigative & Audit Actions
Congressional Testimony
Top Management Challenges
Semi-Annual Reports to Congress
Hotline
Whistleblower Protection
Searchable List of OIG Reports
Audit Reports by Program Area or TopicBusiness Loans and Lender Oversight
Disaster Loans
Surety Bonds
SBICs
Government Contracting and Business Development
Entrepreneurial Development
Agency Management
External Quality Control Reviews of the OIG
Recovery OversightActivities
Plans
Reports
OIG Reports Investigative and Audit Accomplishments for January 2014
The following details OIG activities for January 2014 as they relate to Business Loans, Government Contracting & Business Development, and Agency Management.
Log in or register to post comments
Leadership
Peggy E. Gustafson
Inspector General
Peggy E. (Peg) Gustafson was sworn in as SBA Inspector General on October 2, 2009. Ms. Gustafson previously served as General Counsel to Senator Claire McCaskill (D-MO), where she advised the...
1 of 2
next ›
GET EMAIL UPDATES
In Partnership with Business USA
Aid, counsel, assist and protect, insofar as is
possible, the interests of small business concerns.
Sign up for e-mail updates.
Customer Service
About SBA
Contact SBA
Contacto (en español)
Media and Press Relations
SBA Locations
SBA Team
About SBA.gov
Site Map
Privacy Policy
Linking Policy
Accessibility
Disclaimers
Social Media
Data Store
SBA Information
Freedom of Information Act
No Fear Act
Report Fraud, Waste, and Abuse
Initiatives
Plain Language
SBA Performance
Strategic Planning
Performance and Budget
Open Government
Policy and Regulations
Eliminating Fraud, Waste and Abuse
Advocacy & Oversight
Inspector General
Advocacy
Hearings and Appeals
Ombudsman
Tools and Features
Online Training
Create a Business Plan
Find Events
Qualify for Government Contracts
Analyze Your Business
SBA Partners
WhiteHouse.gov
USA.gov
Regulations.gov
BusinessUSA.gov